                                              EMPLOYMENT AND TRAINING
                                              ADMINISTRATION

Office of Inspector General—Office of Audit




                                              A CONFLICT OF INTEREST EXISTED IN THE
                                              PROCUREMENT AND ADMINISTRATION OF
                                              INDIANA DEPARTMENT OF WORKFORCE
                                              DEVELOPMENT’S WORKFORCE INVESTMENT
                                              ACT CASE MANAGEMENT SYSTEM




                                                                  Date Issued: December 17, 2008
                                                                  Report No.: 05-09-001-03-390
U.S. Department of Labor                       November 2008
Office of Inspector General
Office of Audit
                                               WHAT OIG FOUND
                                               IDWD’s IT Director had a conflict of interest
BRIEFLY…                                       while participating in the award and
                                               administration of the contract to @Work
                                               Solutions. Specifically, the IT Director had a
Highlights of Report: 05-09-001-03-390, A
                                               financial interest in @Work Solutions, Inc. at
Conflict of Interest Existed in the
                                               the same time that he participated in
Procurement and Administration of Indiana
                                               IDWD’s award and administration of a
Department of Workforce Development’s
                                               contract to them.
Workforce Investment Act Case
Management System, to the Deputy
                                               In June 2005, IDWD’s IT Director sold two
Assistant Secretary for Employment and
                                               corporations which were subsequently
Training.
                                               combined and renamed @Work Solutions,
                                               Inc. The sale provided the IT Director an
                                               initial payment at the time of the sale and
WHY READ THE REPORT
                                               monthly installment payments through 2007.
The Office of Inspector General (OIG)          These installment payments constituted a
received an allegation through its Hotline     financial interest in @Work Solutions, Inc.
that a conflict of interest existed when the
Indiana Department of Workforce                After being hired by IDWD in February
Development (IDWD) awarded a $2.8              2005, the IT Director initiated a request to
million contract for a new case management     procure a single state-wide WIA case
system to @Work Solutions. The contract        management system. He directly
was federally funded through a Workforce       participated in the development of the
Investment Act (WIA) grant. Therefore,         Request for Proposal (RFP) and bidder
IDWD was subject to Federal regulations        evaluation criteria. After IDWD awarded the
prohibiting conflicts of interest in           contract to @Work Solutions, Inc. in April
procurement actions.                           2006, the IT Director also participated in the
                                               review and acceptance of contract
                                               deliverables.
WHY OIG DID THE AUDIT
The OIG conducted this audit to determine      The IT Director’s receipt of installment
whether a conflict of interest existed         payments from @Work Solutions, Inc. while
between IDWD’s IT Director and @Work           participating in the award and administration
Solutions during the award and                 of an IDWD contract to the company
administration of the contract to provide      constituted a conflict of interest.
IDWD’s new case management system.
                                               WHAT OIG RECOMMENDED
                                               We recommended that the Assistant
READ THE FULL REPORT                           Secretary for Employment and Training:
To view the report, including the scope,
methodology, and full agency response, go      Review the costs claimed by IDWD related
to:                                            to the contract with @Work Solutions, Inc.
                                               and recover any costs found to be
http://www.oig.dol.gov/public/reports/oa/200   unreasonable.
9/05-09-001-03-390.pdf                         Ensure that IDWD strengthen its internal
                                               controls to prevent and detect conflicts of
                                               interest.

                                               IDWD agreed to take all necessary steps to
                                               rectify the situation identified in our report.
PAGE WAS INTENTIONALLY LEFT BLANK
                                                             U.S. Department of Labor – Office of Inspector General




Table of Contents
                                                                                                                        PAGE

Executive Summary ...................................................................................................... 1

Assistant Inspector General’s Report ......................................................................... 3

    Finding: IDWD’s former IT Director had a conflict of interest when he
    participated in the award and administration of a contract with @Work
    Solutions, Inc. ............................................................................................................ 4

Appendices.................................................................................................................... 9

    A. Background ........................................................................................................ 11

    B. Objective, Scope, Methodology, and Criteria ..................................................... 13

    C. Acronyms and Abbreviations .............................................................................. 15

    D. Auditee Response to Draft Report...................................................................... 17




                                                                                             Conflict of Interest Existed
                                                                                                     in Indiana Contract
                                                                                           Report No. 05-09-001-03-390
               U.S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




                                        Conflict of Interest Existed
                                                in Indiana Contract
                                      Report No. 05-09-001-03-390
                                           U.S. Department of Labor – Office of Inspector General




Executive Summary
OIG received a hotline complaint in September 2006, alleging that the former Deputy
Commissioner for Information Technology, (IT Director) for the Indiana Department of
Workforce Development (IDWD) had a conflict of interest when he participated in the
award and administration of a contract to a company in which he held a financial
interest. In April 2006, IDWD awarded a $2.8 million contract to @Work Solutions, Inc.
for the development of a new state wide WIA case management system. The contract
was federally funded through a WIA grant to IDWD. As of April 2008 IDWD had
expended $1.8 million of the grant funds and the development project remains ongoing.

The objective of our audit was to answer the following question:

Did IDWD’s former IT Director have a conflict of interest when he participated in the
award and administration of a contract with @Work Solutions, Inc.?

Results

Yes. IDWD’s former IT Director did have a conflict of interest in that he did not disclose
a financial interest he held in the vendor @Work Solutions, Inc. while participating in the
award and administration of the contract.

The former IT Director was hired by IDWD in February 2005 and terminated for reasons
unrelated to this allegation in July 2006. When the former IT Director was hired in
February 2005, he owned and operated In Touch Information Services, Inc. (an Indiana
Corporation) and In Touch Information Services of Kentucky, Inc. In June 2005, he sold
the two corporations which were subsequently combined and renamed @Work
Solutions, Inc. The sale provided the former IT Director an initial payment at the time of
the sale and monthly installment payments, paid through 2007.

Shortly after being hired by IDWD, the former IT Director initiated a formal agency
request to procure a single state-wide WIA case management system. In April 2006,
IDWD awarded @Work Solutions, Inc. the contract. Prior to the award, the former IT
Director informed the IDWD Commissioner that a corporation he was in the process of
selling would bid on the case management system contract; however, he did not inform
the Commissioner that he would be receiving monthly installment payments as a result
of the sale. His continuing to receive payments from @Work Solutions, Inc. constituted
a financial interest in the vendor. DOL regulations and State of Indiana (Indiana) ethics
rules prohibit an individual from participating in procurement actions or contract
administration with a vendor in which that person has a financial interest.

During the award and administration of the contract, the former IT Director participated
directly in the development of the Request for Proposal (RFP) and bidder evaluation
criteria, and in the review and acceptance of contract deliverables as part of the process
                                                                    Conflict of Interest Existed
                                             1                              in Indiana Contract
                                                                  Report No. 05-09-001-03-390
                                           U.S. Department of Labor – Office of Inspector General


to approve contractor invoices from @Work Solutions, Inc. Additionally, while the
former IT Director did not serve on the evaluation panel committee, he was in a position
to influence the selection as the direct supervisor of two of the panelists and as a
reviewer of the evaluation committee’s selection recommendation, prior to forwarding it
to the selecting official.

We conclude the former IT Director had a direct conflict of interest given his
participation in the award and administration of the contract, and his receiving of
recurring installment payments through 2007, which constituted a financial interest in
@Work Solutions, Inc. IDWD lacked sufficient internal controls to prevent or detect
such conflicts of interest. Specifically, IDWD did not require employees to attend ethics
training and lacked procedures requiring all state employees involved in procurement
actions or contract administration to disclose personal financial interests. The effect of
this conflict of interest is that IDWD awarded the contract for a new case management
system in violation of the procurement requirements applicable to its use of WIA grant
funds and that the contract may not have been fairly awarded or properly managed.

Recommendations

We recommend that the Assistant Secretary for Employment and Training:

   1. Review the costs claimed by IDWD related to the contract with @Work Solutions,
      Inc. and recover any costs found to be unreasonable.
   2. Ensure that IDWD strengthens its internal controls to prevent and detect conflicts
      of interest. At a minimum, these improvements should include:
          a. Providing and documenting periodic ethics training for all personnel; and
          b. Requiring all personnel involved in procurement actions (from requirement
             identification through final award) and contract administration to disclose
             external financial interests and certify that they are free from conflicts of
             interest.

Auditee Response

In a written response to our draft report, IDWD’s Commissioner stated that IDWD takes
allegations of conflicts of interest seriously and strives to avoid any appearance of
impropriety. The Commissioner’s response stated that IDWD would take all necessary
steps to rectify the situation. Specifically, the Commissioner agreed to (a) provide any
documents needed by ETA in its review of the contract costs and (b) strengthen IDWD’s
internal controls to prevent and detect conflicts of interest. See Appendix D for IDWD’s
complete response to our draft report.

OIG Conclusion

Our finding and recommendations remain unchanged.          The recommendations will be
resolved as part of ETA’s audit resolution process.
                                                                    Conflict of Interest Existed
                                             2                              in Indiana Contract
                                                                  Report No. 05-09-001-03-390
                                           U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                     Office of Inspector General
                                             Washington, DC 20210




December 17, 2008

                        Assistant Inspector General’s Report


Brent Orrell
Deputy Assistant Secretary for
 Employment and Training
200 Constitution Avenue
Washington, DC 20210


OIG received a hotline complaint in September 2006, alleging that the former IT Director
for the Indiana Department of Workforce Development (IDWD) had a conflict of interest
when he participated in the award and administration of a contract to a company in
which he held a financial interest. In April 2006, IDWD awarded a $2.8 million contract
to @Work Solutions, Inc. for the development of a new state wide WIA case
management system. The contract was federally funded through a WIA grant to IDWD.
As of April 2008 IDWD had expended $1.8 million of the grant funds and the
development project remains ongoing.

An audit was conducted to determine whether there was a conflict of interest related to
IDWD’s award and administration of the contract.

We reviewed DOL and State of Indiana regulations related to procurement procedures
and ethical conduct. We also reviewed available documentation related to the award
and administration of the contract identified in the complaint, and selected financial
records associated with the former IT Director and the contractor. In addition, we
interviewed personnel from IDWD; the Indiana Department of Administration (IDOA);
@Work Solutions, Inc.; and the Indiana Ethics Commission.

We conducted our audit in accordance with generally accepted government auditing
standards for performance audits. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a sufficient basis for our findings and conclusions based on our audit
objectives. Our audit scope, methodology and criteria are detailed in Appendix B.




                                                                             Conflict of Interest Existed
                                             3                                       in Indiana Contract
                                                                           Report No. 05-09-001-03-390
                                            U.S. Department of Labor – Office of Inspector General


Results and Finding

Objective – Did IDWD’s former IT Director have a conflict of interest when he
            participated in the award and administration of a contract with
            @Work Solutions, Inc.?

Yes. IDWD’s former IT Director did have a conflict of interest in that he did not disclose
a financial interest he held in the vendor @Work Solutions, Inc. while participating in the
award and administration of the contract.

Finding: IDWD’s former IT Director had a conflict of interest when he participated
         in the award and administration of a contract with @Work Solutions, Inc.

The former IT Director was hired by IDWD in February 2005. According to State
officials he was terminated, for reasons unrelated to this allegation, in July 2006.

       Former IT Director’s Financial Interest in @Work Solutions, Inc.

When the former IT Director was hired in February 2005, he owned and operated In
Touch Information Services, Inc. (an Indiana Corporation) and In Touch Information
Services of Kentucky, Inc. In June 2005, he sold the two corporations which were
subsequently combined and renamed @Work Solutions, Inc. The sale provided the
former IT Director an initial payment at the time of the sale and monthly installment
payments to be paid through April 15, 2008. Although the sales agreement was paid off
by the end of 2007, the former IT Director received monthly payments from the sale of
In Touch throughout his tenure at IDWD.

       Conflict of Interest Violations

Shortly after being hired by IDWD, the former IT Director initiated a formal agency
request to procure a single state-wide WIA case management system. In April 2006,
IDWD awarded @Work Solutions, Inc. the contract. Prior to the award, the former IT
Director informed the IDWD Commissioner that a corporation he was in the process of
selling would bid on the case management system contract. However, he did not inform
the Commissioner that he would be receiving monthly installment payments as a result
of the sale. His continuing to receive payments from @Work Solutions, Inc. during the
procurement action and during the performance of the contract constituted an
inappropriate financial interest in the vendor. DOL regulations and State of Indiana
(Indiana) ethics rules prohibit an individual from participating in procurement actions or
contract administration with a vendor in which that person has a financial interest.

Based on the information he received, the Commissioner concluded there was not a
conflict of interest as long as the former IT Director excluded himself from the
procurement evaluation committee. However, this decision was based on incomplete
information regarding the former IT Director’s financial interests and involvement in the
IDWD procurement process.

                                                                     Conflict of Interest Existed
                                              4                              in Indiana Contract
                                                                   Report No. 05-09-001-03-390
                                            U.S. Department of Labor – Office of Inspector General




During the award and administration of the contract, the former IT Director participated
directly in the development of the Request for Proposal (RFP) and bidder evaluation
criteria, and in the review and acceptance of contract deliverables as part of the process
to approve contractor invoices from @Work Solutions, Inc. Additionally, while the
former IT Director did not serve on the evaluation panel committee, he was in a position
to influence the selection as the direct supervisor of two of the panelists and as a
reviewer of the evaluation committee’s selection recommendation, prior to forwarding it
to the selecting official.

The IDWD Commissioner knew the two companies for sale might bid on agency work
and he directed the former IT Director to exclude himself from the evaluation team.
However, this was insufficient to remove the conflict of interest since it does not appear
the Commissioner was aware of the extent of the former IT Director’s involvement in the
contract or the former IT Directors’ continued financial interest in IT Solutions.

In October 2005, IDWD developed and issued a RFP for a case management system.
The RFP defined the specifications of the desired system and the criteria that would be
used to evaluate the proposals submitted. E-mails and interviews with IDWD
employees, including the former IT Director, confirmed that the former IT Director
participated in developing the RFP.

Although the former IT Director was not the selecting official on this procurement action,
the evaluation committee forwarded its recommendation that @Work Solutions, Inc. be
awarded the contract in a memorandum to him on February 20, 2006. Knowledge of
the committee’s actions prior to a final contract award provided the former IT Director
the opportunity to influence the final decision.

After IDWD awarded the contract to @Work Solutions, Inc. in April 2006, the former IT
Director was directly involved in administering the contract. E-mails from the IDWD
project manager show that the former IT Director reviewed contract deliverables
provided by @Work Solutions, Inc. as part of the process for approving contractor
invoices.

Officials we interviewed at IDWD and the State Ethics Commission stated that it was the
responsibility of the former IT Director to submit a potential conflict of interest in writing
to the State Ethics Commission. Additionally, a State procurement official stated that he
would have removed the former IT Director from the procurement process if he had
known about the potential conflict of interest.

       DOL and State of Indiana Ethics Regulations

Under provisions of WIA, DOL required IDWD to establish contracts paid for with federal
funds in accordance with federal procurement rules. Specifically, Title 29 of the Code of
Federal Regulations (CFR), sub-section 97.36 (b), states:


                                                                     Conflict of Interest Existed
                                               5                             in Indiana Contract
                                                                   Report No. 05-09-001-03-390
                                                  U.S. Department of Labor – Office of Inspector General


          Grantees and sub grantees will use their own procurement standards
          which reflect applicable state and local laws and regulations provided that
          the procurements conform to applicable Federal laws and standards
          identified in this section.

Further, 29 CFR 97.36 (b) (3) states:

          No employee, officer or agent of the grantee or sub grantee shall
          participate in the selection, or in the award or administration of a contract
          supported by Federal funds if a conflict of interest, real or apparent, would
          be involved. Such a conflict would arise when: (i) The employee, officer,
          or agent…has a financial or other interest in the firm selected for award.

Indiana regulations prohibit employees with a conflict of interest from being involved in a
procurement process or from approving invoices after the contract has been awarded.
Indiana Administrative Code (IAC) regulation 42 IAC 1-2-1, Section 1. (c)(4) 1 , states:

          Actions, transactions, or involvement should not be performed or
          engaged in which have the potential to become a conflict of interest.

In addition, Indiana ethics rules prohibit state officials from having a financial interest in
entities that do business with the state. 42 IAC, 1-5-7, (a) 2 states:

          Subject to subsection (b), a state officer, an employee, or a special state
          appointee may not knowingly have a financial interest in a contract made
          by an agency. 3

          Internal Control Weaknesses

The former IT Director’s conflict of interest was not reported or detected due to internal
control weaknesses. Specifically, the former IT Director had not been trained regarding
state ethics requirements and all IDWD personnel involved in procurements and
contract administration were not required to disclose external financial interests.

When the former IT Director was hired by IDWD, the Indiana Ethics Commission had a
rule that required (a) all new employees to participate in ethics training within 6 weeks of
starting employment with an agency, (b) all employees to receive ethics training every
two years, and (c) agencies to maintain documentation of compliance with the ethics
training requirements.



1
    Prior to January 2006 this regulation was contained in 40 IAC 2-1-3, Section 3(c)(5).
2
    Prior to January 2006 this regulation was contained in 40 IAC 2-1-9.
3
    Subsection (b) discusses circumstances where this section does not apply. None of the exceptions
    apply to this matter.

                                                                            Conflict of Interest Existed
                                                     6                              in Indiana Contract
                                                                          Report No. 05-09-001-03-390
                                                    U.S. Department of Labor – Office of Inspector General


The former IT Director stated he had never received ethics training while employed by
IDWD and, therefore, was not aware of the State’s requirements and procedures
regarding conflicts of interest 4 . Although the State required that ethics training be
provided to all new employees within 6 months and to all employees biannually, there
was no evidence that IDWD had conducted ethics training for any employees during the
former IT Director’s employment tenure. In fact, there was no evidence that IDWD had
conducted any ethics training for its employees between January 2005 and
February 2008.

The Indiana ethics regulations do not require all state employees involved in
procurement actions or contract administration to disclose personal financial interests or
to certify that they are free from conflicts of interest. Only members of procurement
evaluation committees are required to sign a statement that they do not have a conflict
of interest with any potential vendor for that contract. Requiring any individual involved
in developing, awarding, or administering a state contract to disclose external financial
interests and certify their freedom from conflicts of interest would provide a more
comprehensive means of potentially detecting conflicts of interest.

As a result of the former IT Director’s conflict of interest, IDWD opened the possibility for
questions concerning whether the WIA case management system represented the best
value for the expenditure of federal funds.

We conclude the former IT Director had a direct conflict of interest, given his
participation in the award and administration of the contract and his receipt of recurring
installment payments through 2007, which constituted a financial interest in @Work
Solutions, Inc. IDWD lacked sufficient internal controls to prevent or detect such
conflicts of interest. Specifically, IDWD did not require employees to attend ethics
training and lacked procedures requiring all state employees involved in procurement
actions or contract administration to disclose personal financial interests. The effect of
this conflict of interest is that IDWD awarded the contract for a new case management
system in violation of the procurement requirements applicable to its use of WIA grant
funds and that the contract may not have been fairly awarded or properly managed.

Auditee Response

In a written response to our draft report, IDWD’s Commissioner stated that IDWD takes
allegations of conflicts of interest seriously and strives to avoid any appearance of
impropriety. The Commissioner agreed to (a) provide any documents needed by ETA
in its review of the contract costs and (b) require all personnel involved in procurements
to disclose external financial interests and certify they are free from conflicts of interest.

Regarding our statement that there was no evidence that employees had completed
required ethics training between January 2005 and February 2008, the Commissioner
stated that during the period covered by our report IDWD required employees to attend
4
    Ethics rules were available for employees to review, as needed, through a State website.

                                                                              Conflict of Interest Existed
                                                       7                              in Indiana Contract
                                                                            Report No. 05-09-001-03-390
                                          U.S. Department of Labor – Office of Inspector General


mandatory ethics training. The Commissioner stated that as of 2008, ethics training
was conducted electronically to track and ensure compliance and that 100% of IDWD’s
employees had completed the training in 2008.

The IDWD response is presented in its entirety in Appendix D.

OIG Conclusion

Our finding and recommendations remain unchanged. The recommendations will be
resolved as part of ETA’s audit resolution process.

Recommendations

We recommend that the Assistant Secretary for Employment and Training:

   1. Review the costs claimed by IDWD related to the contract with @Work Solutions,
      Inc. and recover any costs found to be unreasonable.
   2. Ensure that IDWD strengthen its internal controls to prevent and detect conflicts
      of interest. At a minimum, these improvements should include
          a. Providing and documenting periodic ethics training for all personnel; and
          b. Requiring all personnel involved in procurement actions (from requirement
             identification through final award) and contract administration to disclose
             external financial interests and certify that they are free from conflicts of
             interest.




Elliot P. Lewis




                                                                   Conflict of Interest Existed
                                            8                              in Indiana Contract
                                                                 Report No. 05-09-001-03-390
             U.S. Department of Labor – Office of Inspector General




Appendices




                                      Conflict of Interest Existed
               9                              in Indiana Contract
                                    Report No. 05-09-001-03-390
               U.S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




                                        Conflict of Interest Existed
                 10                             in Indiana Contract
                                      Report No. 05-09-001-03-390
                                          U.S. Department of Labor – Office of Inspector General


                                                                               APPENDIX A
BACKGROUND

In September 2006, OIG received a complaint, (referred to the Office of Audit), alleging
the IDWD’s contract for a new case management system for WIA operations, awarded
effective April 18, 2006, involved a conflict of interest between the agency former IT
Director (Deputy Commissioner for Information Technology) and the vendor, a company
the former IT Director had previously owned.

The complaint alleged that IDWD had entered into an agreement with @ Work Solutions
involving $2.8 million paid for with WIA grants from the DOL Employment and Training
Administration (ETA). Additionally, the allegation indicated the purpose of the contract
for a centralized case management system was unnecessary and the contracted
software system was ineffective.

In preliminary work, we determined there appeared to be a conflict of interest in the
procurement process, however there was no support for the allegations that the contract
was unnecessary or that the case management system was ineffective. As a result, we
focused our audit on the alleged conflict of interest.

Workforce Investment Act

The Workforce Investment Act (WIA) of 1998 provides Federal grants to states for job
training programs. The WIA created a new, comprehensive workforce investment
system and provides criteria for the creation of workforce investment areas which
receive funding through the state.

Employment and Training Administration (ETA)

ETA provides federal grants for state and local government job training and worker
dislocation programs. These programs are primarily delivered through state and local
workforce development systems.

ETA awarded Indiana State grant AA-15478-06-55 for $15.2 million to IDWD for
administration of the WIA program and funding subrecipients. IDWD used the grant to
fund the contract for a new WIA case management system.

Indiana Department of Workforce Development (IDWD)

The IDWD is the grant recipient under WIA to manage the program within the state. It
administers employment programs for residents.

In 2005, IDWD had 16 Workforce Investment Boards (WIB) throughout Indiana. Each
had their own case management software system. After the new IT Director was
appointed, IDWD determined there was a need for a uniform software system that all 16
locations could use.
                                                                   Conflict of Interest Existed
                                            11                             in Indiana Contract
                                                                 Report No. 05-09-001-03-390
                                          U.S. Department of Labor – Office of Inspector General




IDWD state ethics guidance for employees is the responsibility of the IDWD Deputy
Commissioner/Human Resources Director.

Indiana Department of Administration (IDOA)

The IDOA is an umbrella agency that provides support services to other State agencies.
The Procurement Division of IDOA facilitates the purchasing and contracting activities of
all State Agencies, excluding the Indiana Department of Transportation. The IDOA
Procurement Division manages all: (a) requests for information (RFI); (b) request for
quotes; (c) request for proposals (RFP); and purchase agreements.




                                                                   Conflict of Interest Existed
                                            12                             in Indiana Contract
                                                                 Report No. 05-09-001-03-390
                                           U.S. Department of Labor – Office of Inspector General


                                                                                APPENDIX B
OBJECTIVES, SCOPE, METHODOLOGY, AND CRITERIA


Objective
Did IDWD’s former IT Director have a conflict of interest when he participated in the
award and administration of a contract with @Work Solutions, Inc.?

Scope

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

We examined the alleged conflict of interest regarding the contract award to @Work
Solutions, Inc. and subsequent contract administration by IDWD primarily during the
period from February 2005; when the former IT Director was hired by the State, through
December 2006.

We evaluated IDWD’s internal controls related to preventing and detecting conflicts of
interest in procurement awards and contract administration as related to this contract.
Since IDOA was also involved in the procurement process for @Work Solutions, Inc.,
we conducted a limited review of their internal controls over this procurement process.

Our audit was conducted at IDWD, IDOA and the Indiana Ethics Commission offices in
Indianapolis, Indiana and our office in Chicago, Illinois. We also visited the Indianapolis
offices of @Work Solutions, Inc.

Methodology

We based our conclusions on interviews and document examinations.

We interviewed current and former employees of IDWD, including:

   •    Subject of the complaint (former IT Director);
   •    Former IT Director’s supervisor, the former IDWD Commissioner;
   •    Current Commissioner (this person was General Counsel during the former IT
        Director’s tenure at IDWD);
   •    Current and former Human Resources Directors;
   •    Manager for @Work Solutions, Inc. contract; and
   •    Four proposal evaluation committee members (others were no longer with IDWD)

                                                                    Conflict of Interest Existed
                                             13                             in Indiana Contract
                                                                  Report No. 05-09-001-03-390
                                           U.S. Department of Labor – Office of Inspector General


We also interviewed others involving this complaint:

   •   Director, State Ethics Commission Board;
   •   IDOA Deputy Commissioner, Purchasing;
   •   Owners of @Work Solutions, Inc.; and
   •   ETA Financial Grants Management Analyst, Chicago, Region 5 (covers Indiana).

We examined IDWD procurement files regarding the @Work Solutions, Inc. contract to
identify all available documentation of the process. This included documents that were
developed to identify the need for the contract, criteria that went into the RFP, proposals
submitted by vendors and proposal evaluation committee analysis and rating of
vendors, the proposal committee recommendation to select @Work Solutions, Inc. with
supporting analysis and various correspondence between IDWD and IDOA.

We also reviewed the former IT Director’s emails during his tenure at IDWD, IDWD
contract with @Work Solutions, Inc.; and agreement for the sale of the former IT
Director’s companies. Additionally, we established a time-line of events starting with the
appointment of the former IT Director at IDWD to the date he was fully paid for the sale
of his companies.

We identified federal and state regulatory requirements related to ethics and
procurement and compared them to circumstances involved in this contract award and
administration during the former IT Director’s tenure at IDWD.

Criteria

We used the following criteria in performing this audit:

ETA, Title 20, CFR Subpart 667.200
Labor, Title 29, CFR Subpart 97.36
ETA One Stop Comprehensive
   Financial Management Technical Assistance Guide; Chapter 11-10 Procurement
   (July 2002)
Indiana Code of Ethics, 42 IAC 1
Indiana Code of Ethics for the Conduct of State Business, 40 IAC 2




                                                                    Conflict of Interest Existed
                                             14                             in Indiana Contract
                                                                  Report No. 05-09-001-03-390
                                     U.S. Department of Labor – Office of Inspector General


                                                                          APPENDIX C
ACRONYMS AND ABBREVIATIONS

CFR    -   Code of Federal Regulations
DOL    -   Department of Labor
ETA    -   Employment and Training Administration
IDOA   -   Indiana Department of Administration
IDWD   -   Indiana Department of Workforce Development
FY     -   Fiscal Year
IG     -   Inspector General
IT     -   Information Technology
OIG    -   Office of Inspector General
WIA    -   Workforce Investment Act




                                                              Conflict of Interest Existed
                                       15                             in Indiana Contract
                                                            Report No. 05-09-001-03-390
               U.S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




                                        Conflict of Interest Existed
                 16                             in Indiana Contract
                                      Report No. 05-09-001-03-390
                             U.S. Department of Labor – Office of Inspector General


                                                                  APPENDIX D
AUDITEE RESPONSE TO DRAFT REPORT




                                                      Conflict of Interest Existed
                               17                             in Indiana Contract
                                                    Report No. 05-09-001-03-390
